NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




               REVIEW OF NCUA’S EXAMINATION
               AND COMPLAINT PROCESSES FOR
                    SMALL CREDIT UNIONS


                       Report #OIG-12-10
                        August 31, 2012




                            William DeSarno
                           Inspector General


Released By:                                   Auditor-in-Charge:



James Hagen                                    R. William Bruns
Deputy Inspector General                       Senior Auditor
                                 Table of Contents

Section                                                         Page


   ACRONYMS AND ABBREVIATIONS                                    ii

   PREFACE                                                       1


   EXECUTIVE SUMMARY                                             2


   BACKGROUND                                                    3


   OBJECTIVES, SCOPE AND METHODOLOGY                             7


   RESULTS IN DETAIL                                             9


          A. Examination Process                                 9


          B. Complaint Process                                   22

   APPENDICES

          A. Small Credit Union Examination Program – Minimum    32
             Scope Requirements and Minimum Required
             Questionnaires

          B. NCUA Management Comments                            33




                                                                       i
ACRONYMS AND ABBREVIATIONS

ADR           Alternative Dispute Resolution
AIRES         Automated Integrated Regulatory Examination Software
ARDP          Assistant Regional Director Programs
ARDO          Assistant Regional Director Operations
BAM           Board Action Memorandum
DCCO          Division of Consumer Compliance and Outreach
DOS           Division of Supervision
E&I           Division of Examination and Insurance
EIC           Examiner-in-Charge
FCU           Federal Credit Union
FCU Act       Federal Credit Union Act
FDIC          Federal Deposit Insurance Corporation
FISCU         Federally Insured State-Chartered Credit Union
FRB           Federal Reserve Board
IDP           Individual Development Plan
IRPS          Interpretive Ruling and Policy Statement
MARS          Management Automated Resource System
NCUA          National Credit Union Administration
NCUSIF        National Credit Union Share Insurance Fund
NSPM          National Supervision Policy Manual
OCP           Office of Consumer Protection
OED           Office of the Executive Director
OGC           Office of General Counsel
OIG           Office of Inspector General
PE            Principal Examiner
QCR           Quality Control Review
RD            Regional Director
              Riegle Community Development and Regulatory Improvement
Riegle Act
                Act of 1994
RFE           Risk-Focused Examination Program
SCUEP         Small Credit Union Examination Program
SRC           Supervisory Review Committee
SE            Supervisory Examiner
Treasury      U.S. Department of the Treasury
WCC           Work Classification Code




                                                                        ii
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10


Preface

On February 10, 2012, the National Credit Union Administration (NCUA) Office of
Inspector General (OIG), along with Inspectors General at the U.S. Department of the
Treasury (Treasury), the Federal Reserve Board (FRB), and the Federal Deposit
Insurance Corporation (FDIC), received a request from Senator Tim Johnson,
Chairman, United States Senate, Committee on Banking, Housing, and Urban Affairs, to
conduct an audit at each agency under their purview regarding each agency’s
examination process for small community banks and credit unions.

Although NCUA defines small credit unions as those having $10 million or less in
assets, all natural-person credit unions with assets less than $1 billion are examined
using the same Risk-Focused Examination (RFE) process. Therefore, the results of this
report apply to all natural-person credit unions with $1 billion or less in assets.
Consequently, this report on NCUA’s examination process covers over 97 percent of all
federally insured credit unions. 1

In addition, the Senator’s request also asked the Inspectors General to include
examination timelines and discuss how agencies ensure consistency in the
administration of examinations across the country, as well as the ability of regulated
institutions to question examination results such as through an Ombudsman, an
appeals process, or informal channels, and the frequency and success of such appeals.

This report outlines NCUA’s policies, procedures, and processes for examinations and
complaints, and provides the OIG’s assessment of NCUA’s adherence to its guidance.
This report makes four recommendations, which the OIG believes can improve NCUA’s
examination and complaint processes, as well as assist Chairman Johnson and
members of the Senate Committee on Banking, Housing, and Urban Affairs better
understand these areas of NCUA’s programs.




1
  The results of this review do not pertain to Corporate Credit Union examinations, which do not use the RFE
program. Additionally, in January 2012, NCUA examinations of small credit unions – those with less than $10 million
in assets – are examined under the Small Credit Union Examination Program (SCUEP), which still uses the same
RFE program, but has different minimum scope requirements. This reduced scope only applies to small credit unions
that are operationally sound and have lower risk (CAMEL 1, 2, and 3) ratings.

                                                                                                                 1
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Executive Summary

At the request of the Chairman of the Senate Committee on Banking, Housing, and
Urban Affairs, the NCUA-OIG conducted a review of NCUA’s examination and
complaint processes to determine: (1) the NCUA’s examination process for small credit
unions; and (2) the ability of insured credit unions to question examination results.
Consistent with the request, we placed a particular emphasis on reviewing examination
policies and procedures, as well as examination timeliness to determine how NCUA
ensures consistency on a national basis in the administration of examinations, including
the tools to accomplish the process. Our review also concentrated on complaints
related to safety and soundness issues to ensure credit unions can seek informal review
of disputed issues at the examiner/regional level, as well as through a formal appeals
process. To achieve these objectives, we interviewed management and staff and/or
obtained documentation from NCUA’s Office of the Executive Director (OED); Office of
Examination and Insurance (E&I); Office of Consumer Protection (OCP); Office of
General Counsel (OGC); and each of NCUA’s five regional offices. We reviewed NCUA
policies and procedures related to examination and complaint processes and
benchmarked with our counterparts from the other Federal agencies identified in the
Senate Committee’s request. 2

Overall, we determined NCUA’s examination process has clear standards and policies
to conduct examinations. However, we noted inconsistencies in the manner in which
NCUA carried out the procedures to implement those policies. Despite inconsistencies
in the manner in which NCUA implemented its examination policies, we are not making
recommendations to the examination process because NCUA has recently
implemented a National Supervision Policy Manual (NSPM) that we believe addresses
the inconsistent procedures we noted.

In addition, we determined NCUA has an adequate appeals process, which allows
credit unions to question examination results. However, we determined there are
operational and organizational deficiencies related to compliance monitoring, the
regional determination process, the Supervisory Review Committee (SRC), and the
Ombudsman position, respectively, which we believe NCUA management could
improve. As a result, we are making four recommendations to correct identified
deficiencies.

We appreciate the cooperation and courtesies NCUA management and staff provided to
us during this review.




2
    We benchmarked with OIG staff from FDIC, FRB, and Treasury.

                                                                                       2
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Background

Examination Process

The Federal Credit Union Act (FCU Act) 3 requires each federally insured credit union be
subject to examination by any person designated by the NCUA Board.

The principal method by which NCUA carries out its supervisory responsibility is through
on-site examinations. These examinations, designed to determine the risk to the
National Credit Union Share Insurance Fund (NCUSIF), focus on a credit union’s ability
to identify, measure, monitor, and control risk. As of June 2012, NCUA supervised
6,960 natural-person credit unions, of which 4,366 (63 percent) were federally insured
federal credit unions (FCUs) and 2,594 (37 percent) were federally insured, state
chartered credit unions (FISCUs).

NCUA encourages examiners to discuss problems and/or conditions that impair or may
impair the safety and soundness of the credit union with the appropriate credit union
officials and employees throughout the examination. At the conclusion of the
examination, examiners prepare and provide officials with a written report highlighting
the results of the examination. The credit union’s board of directors and committee
members use the report to take necessary corrective actions to ensure the identified
problems are corrected.

In addition to providing credit union officials with a report of examination, through
conferences with officials, examiners also assist in the development of plans designed
to overcome underlying causes of current or potential problems. This further ensures
officials understand what must be done to improve operations.

Examiner Guidance

During the scope period of our review, NCUA used the Examiner’s Guide to provide
guidance to examiners conducting examinations and supervision contacts of credit
unions. In addition to the Examiner’s Guide, each of NCUA’s five regions has long had
its own unique regional supervision manuals 4 to instruct and guide examiners in
carrying out supervision and examinations of credit unions in accordance with regional
policies. On July 1, 2012, NCUA issued the new NSPM to instruct and guide examiners
in the supervision and examination of credit unions on a national level.

Total Analysis Process

NCUA uses a total analysis process which includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing

3
  FCU Act, 12 U.S.C.,§1756 – Reports and Examinations.
4
  Regional Directors (RD) based their regional supervision manuals on the Examiner’s Guide, as well as incorporating
NCUA Instructions, Directives, and Supervisory Letters issued to field staff on any number of examination-related
topics.

                                                                                                                  3
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



action plans. The objectives of the total analysis process include evaluating CAMEL 5
components, and reviewing qualitative and quantitative measures.

NCUA uses the CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL rating
includes consideration of key ratios, supporting ratios, and trends. Generally,
examiners use the key ratios to evaluate and appraise the credit union’s overall financial
condition. During an examination, examiners assign a CAMEL rating, which completes
the examination process.

Examiner judgment affects the overall analytical process. An examiner’s review of data
includes structural analysis, 6 trend analysis, 7 reasonableness analysis, 8 variable data
analysis, 9 and qualitative data analysis. 10 Numerous ratios measuring a variety of credit
union functions provide the basis for analysis. Examiners must understand these ratios
both individually and as a group because some individual ratios may not provide an
accurate picture without a review of the related trends. Financial indicators such as
adverse trends, unusual growth patterns, or concentration activities can serve as
triggers of changing risk and possible causes for future problems. NCUA also instructs
examiners to look behind the numbers to determine the significance of the supporting
ratios and trends. Furthermore, NCUA requires examiners to determine whether
material negative trends exist; ascertain the action needed to reverse unfavorable
trends; and formulate, with credit union management, recommendations and plans to
ensure implementation of these actions.

Risk-Focused Examination Program

In 2002, NCUA implemented the Risk-Focused Examination (RFE) program. 11 Risk-
focused examinations are not audits. The RFE objectives are to determine whether a
credit union is financially sound and whether officials conduct operations in compliance
with applicable laws and regulations.

Supervision is the ongoing monitoring of a credit union's financial and operational
condition. Risk-focused supervision procedures often include both off-site and on-site
work that includes reviewing off-site monitoring tools and risk evaluation reports. During

5
  The acronym CAMEL derived its name from the following examination components: [C]apital Adequacy, [A]sset
Quality, [M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
6
  Structural analysis includes the review of the component parts of a financial statement in relation to the complete
financial statement.
7
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
8
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance ratios.
9
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process enables
examiners to look beyond the "static" balance sheet figures to assess the financial condition, quality of service, and
risk potential.
10
   Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union's current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.
11
   Letter to Federal Credit Unions 02-FCU-09, Risk-Focused Examination Program, May 2002.

                                                                                                                         4
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



supervision within the risk-focused program, the examiner looks forward at the direction
a credit union will take and the decisions it will make. Examiners can then anticipate
when those decisions might result in the credit union assuming undue risk or failing to
manage the risk it has taken. Examiners may determine or adjust the timing of the
examination based on conditions revealed during the supervision process.

The RFE process includes reviewing seven categories of risk: Credit, Interest Rate,
Liquidity, Transaction, Compliance, Strategic, and Reputation. Examination planning
tasks may include: (a) reviewing the prior examination report to identify the credit
union’s highest risk areas and areas that require examiner follow-up, and (b) analyzing
Call Report and Financial Performance Report trends. The extent of supervision plans
depends largely on the severity and direction of the risks detected in the credit union’s
operation and on management’s demonstrated ability to manage those risks. A credit
union’s risk profile may change between examinations. Therefore, the supervision
process encourages examiners to identify those changes in profile through the
following:

     •   Review of Call Reports
     •   Communication with credit union staff
     •   Knowledge of current events affecting the credit union

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the Annual Examination Scheduling Program. 12
NCUA indicated these changes were necessary due to adverse economic conditions
and distress in the nation’s entire financial structure, which placed credit unions at
greater risk of loss. NCUA stated at the time that this new program would provide more
timely relevant qualitative and quantitative data to recognize any sudden turn in a credit
union's performance.

In 2009, NCUA developed a new examination policy13 that resulted in additional
minimum required examination procedures based on a national review of risk. The
policy directed a periodic national review of risk issues and adjustment to the minimum
review procedures. NCUA indicated the intent of the policy was to shape its
examination and supervision program to consistently identify and mitigate emerging
risks in response to changing environmental factors within the credit union industry. As
a result of this policy, E&I, with input from the regions, now updates the minimum scope
procedures, as necessary, by focusing on emerging risks, risk monitoring observations,
results of quality control reviews, regulatory changes, and lessons learned from
NCUAOIG Material Loss Reviews.

12
   The Annual Examination Scheduling Program requires either an examination or a material on-site supervision
contact within a 10 to 14 month timeframe based on risk-based scheduling eligibility. Maximum and minimum time
between the completion dates of one examination to the completion date of the next examination is 23 months and 8
months, respectively.
13
   NCUA revised this policy with Instruction No. 5000.20 (Rev. 4), Risk-Focused Examinations – Minimum Scope
Requirements, on June 25, 2012.

                                                                                                                5
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



In 2011, NCUA’s Region I piloted a Small Credit Union Examination Program (SCUEP)
to determine whether examination resources could be better aligned with industry risks.
Essentially, the SCUEP expanded the minimum required examination scope for
nationally identified areas of elevated risk and reduced the minimum required
examination scope in CAMEL 1, 2, or 3 FCUs with less than $10 million in total assets.

Based on the success of the pilot, NCUA established the SCUEP on a national basis in
January 2012. NCUA officials indicated that the new scope requirements supplement
existing RFE practices and do not replace the examiner’s judgment and responsibility to
refine and adjust their scope, noting that examiners should continue to follow the
concepts of the RFE process outlined in the Examiner’s Guide for areas of elevated
risk. For a complete list of current SCUEP minimum scope requirements and minimum
required questionnaires examiners are to complete, see Appendix A.

Complaint Process

In 1994, Congress enacted the Riegle Community Development and Regulatory
Improvement Act of 1994 14 (Riegle Act). Section 309 of the Riegle Act required, among
other things, that the NCUA and the federal banking agencies each establish an
independent appellate process to review material supervisory determinations.
Specifically, the Riegle Act required the NCUA to establish:

        [a]n independent intra-agency review process for material supervisory
        determinations, appoint an Ombudsman, and develop an alternative dispute
        resolution program.

In response, the NCUA Board: (1) established an SRC; (2) established an Ombudsman
position; and (3) issued an alternative dispute resolution (ADR) program Policy
Statement. 15

Examiner and Supervisory Examiner (SE) Appeals

NCUA policy requires examiners to maintain good communication with all credit unions
it supervises by encouraging that disagreements get resolved informally and
expeditiously during the normal course of an examination. The first step of the appeals
process is informal complaint resolution, which generally consists of credit union
management working through disagreements at the examiner or SE level before
examination report issuance.




14
  Pubic Law No.: 103-325, §309(a), 108 Stat. 2160.
15
  61 FR 11433-34 (March 20, 1996). Section 309(e) of the Riegle Act envisioned the use of ADR methods to resolve
(a) claims against insured credit unions for which NCUA has been appointed conservator or liquidating agent; (b)
actions taken by NCUA in its capacity as conservator or liquidating agent; and (3) any other issue for which the
NCUA Board determines that ADR would be appropriate. In this regard, see NCUA Regulations at 12 CFR §
709.8(c).

                                                                                                              6
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Regional Director Appeals

If, after receiving an examiner’s final determination, credit union management still does
not agree with the report results, FCUs and FISCUs can request a regional
determination. Credit unions seeking a regional determination must contact the region
within 30 days of the examiner’s final determination. After receiving the credit union’s
request, the regional office first verifies that an NCUA examiner made the
determination. If so, the region will handle the dispute. A credit union may file an
appeal to the SRC either 30 days after the RD has made its determination, or 60 days
after contacting the regional office if the region has not made a determination. If the
regional office determines a state examiner made the decision, the region will turn the
appeal over to the appropriate state regulatory authority for a determination.

The SRC consists of three members of NCUA's senior staff appointed by the NCUA
Chairman. None of the members may simultaneously serve as Regional Director,
Associate Regional Director, Executive Director, Director of the Office of Small Credit
Union Initiatives, or Senior Policy Advisor or Chief of Staff to a Board Member. The
NCUA Chairman designates one member as chairperson and all three committee
members serve for one-year terms and may be reappointed for additional terms. Each
member of the SRC has one vote and a quorum (two members) must be present at
each meeting, which is held in person or via teleconference. A majority vote of the full
SRC (two votes) is required for action on an appeal.

Ombudsman

In a Board Action Memorandum (BAM) approved by the NCUA Board on
March 13, 1995, the Board established an Ombudsman position. In the BAM, the Board
stated that the Ombudsman position (1) would be held by an existing NCUA employee
appointed by the Chairman; (2) the functions of the position would be collateral to the
appointee’s current duties; and (3) the Ombudsman would report to the NCUA
Board. In addition, the Board authorized the appointee to act independently of NCUA
program functions and have access to agency records. The Board further authorized
the Ombudsman to keep confidential any information and material he/she obtained as a
result of investigating complaints.

Objectives, Scope, and Methodology

The objectives of our review were to determine: (1) NCUA’s examination process for
small credit unions; and (2) the ability of insured credit unions to question examination
results. Within these objectives, we placed a particular emphasis upon reviewing
examination timelines and how NCUA ensures consistency in the administration of
examinations across the country. In addition, we reviewed NCUA’s SRC and the role of
the Ombudsman within the OCP.




                                                                                            7
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



The scope of our review covered the current examination process and complaints
(safety and soundness related, as well as consumer) during the five-year period from
January 1, 2007 to December 31, 2011.

To accomplish our objectives we:

    •   Interviewed management and staff in NCUA’s OED, E&I, OCP, OGC; and
        reviewed documentation received from each of the five regional offices;

    •   Reviewed NCUA policies and procedures related to examination and complaint
        processes; and

    •   Analyzed examination and complaint data.

We conducted this review from March 2012 through August 2012 in accordance with
generally accepted government auditing standards, and included such tests of internal
controls as we considered necessary under the circumstances. Those standards
require that we plan and perform the review to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our review
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our review objectives.




                                                                                        8
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Results in Detail

Overall, we determined NCUA’s examination process for small credit unions has clear
standards and policies to conduct examinations. However, inconsistencies existed in
the manner in which NCUA carried out the procedures to implement those policies. In
addition, we determined NCUA has a robust appeals process which allows credit unions
to question examination results. However, we determined there are operational and
organizational deficiencies related to regional determinations, the SRC, and the
Ombudsman position, respectively, that NCUA management could improve.

A. Examination Process

  Clear Policies, but          We determined NCUA management has provided
  Inconsistently               examiners with clear standards and policies governing its
  Applied Examination          examination process. However, inconsistencies existed in
  Procedures                   how NCUA allowed its examiners to carry out those
                               policies. Specifically, we found NCUA management
                               provides examiners with sufficient national guidance
through its policies and tools to ensure credit unions, nationally, receive a thorough and
professionally conducted examination or supervision contact. However, we believe the
agency’s organizational structure – consisting of five separately run regional offices,
each having its own supervision manual – may have created quality control issues,
which contributed to the perception that nationally, examiners conducted examinations
with “inconsistent application of agency policies and procedures” as stated in the
Senate Committee’s February 10, 2012, letter to the OIG.

For well over a decade, NCUA’s five regional offices have each had in place its own
unique supervision manuals that incorporated NCUA’s national Examiner’s Guide and
other related policies, instructions, and directives for overseeing and conducting RFEs.
However, we determined no two regional supervision manuals were the same, with
each region having its own customized approach to conducting RFEs.

When the economic downturn occurred in 2008, NCUA reorganized two regions that
were once defined geographically in order to better optimize resources. NCUA officials
moved supervision responsibility of all California credit unions from Region V to Region
II and supervision of all Nevada credit unions from Region V to Region I. After the
reorganization, NCUA officials received feedback from regional office management and
field staff about quality control issues related to conducting RFEs and realized they
needed to implement a national supervision manual to provide consistent guidance to
examiners and supervisors, rather than allowing the continued use of five separate
regional manuals.

The process to develop the NSPM began in earnest in May 2010 and used a bottom-up
approach that initially began with representatives from each regional office helping
create a draft manual based largely on regional policies. Following the development of
the draft manual, a national working group made substantive changes based on input

                                                                                           9
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



from groups made up of regional management and examination staff, as well as
management and staff at NCUA’s Central Office. Additionally, in November 2010, the
OIG issued its MLR Capping Report with recommendations to NCUA management for
several changes to the examination process, which were eventually incorporated into
the new supervision manual.

Prior to finalizing the NSPM in April 2012, NCUA held comprehensive examiner training
at its National Training Conference where agency trainers outlined the new NSPM and
received constructive feedback. By conducting the training at the conference, NCUA
officials assured themselves that all examiners, regardless of region, heard the same
message, which NCUA officials indicated would result in a more consistent message
regarding supervision and examination standards for credit unions.

On July 1, 2012, NCUA management issued its new NSPM, which incorporates, by
reference, the Examiner’s Guide, NCUA instructions, Letters to Credit Unions, and other
directives and guidance on the examination process.

NCUA officials described the purpose of creating the NSPM as the removal of regional
differences in quality control by standardizing the most effective supervision policies of
the five regions and implementing them nationally to ensure greater consistency in
examinations and supervision practices as regions share examiner resources. We
agree with NCUA officials and believe that moving forward, the new single NSPM – not
five regional variations – will provide greater quality control and direction to all
examiners, thereby creating consistency in the examination process. As a result of the
recently implemented NSPM, we believe NCUA management has taken appropriate
action to correct the identified deficiency and are therefore making no recommendations
at this time.

Clear Standards and Adequate Tools for the Examination Process

As previously noted, we determined NCUA provided examiners with clear standards
and policies for the examination process, as well as adequate tools to ensure examiners
provide credit unions with professionally conducted examinations and supervisory
contacts.

During the scope period of our review, the Examiner’s Guide served as NCUA’s national
reference manual, which the examiners used to supplement regional procedures.
Revised in 2002 to incorporate the RFE program, the Examiner’s Guide provided clear
and concise standards, which provided examiners with sound fundamental examination
protocol to ensure the overall safety and soundness of the credit union system.
However, as discussed above, the Examiner’s Guide had become outdated and NCUA
needed a different approach to ensure consistent examinations across regional offices.

We believe the new NSPM is a comprehensive source of guidance for examiners,
supervisors, regional offices, and Central Office staff. The focus of the NSPM is on
providing examiners and supervisors with thorough and concise national instruction for

                                                                                       10
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



performing examinations and supervisory contacts through an across-the-board
approach that guides examiners from planning through execution and follow-up.

NCUA divided the NSPM into 12 Chapters, incorporating all examination-related
instructions and bulletins by reference within each chapter, as appropriate. The NSPM
covers key examination topics such as:

       •   FCU and FISCU Programs and Procedures;
       •   Quality Assurance;
       •   Audits, Recordkeeping, and Fraud;
       •   Regulatory Waivers, Change of Officials, and other Regulatory Actions;
       •   Credit Union Service Organizations;
       •   Office of Small Credit Union Initiatives and the National Small Credit Union
           Program;
       •   Bank Secrecy Act Enforcement; and
       •   Prompt Corrective Action and Administrative Remedies.

Although regional policies and procedures historically adhered to national standards, we
believe the NSPM provides one comprehensive document, which ensures a consistent
method regarding how examiners should conduct a complete and thorough risk-focused
examination or supervision contact.

In addition to relying on written guidance to direct and control the examination process,
NCUA relies on tools which include software such as NCUA’s Automated Integrated
Regulatory Examination Software (AIRES) and Management Automated Resource
System (MARS) to ensure consistent data capture and analysis. Other tools include
examiner training initiatives such as annually developed Individual Development Plans
(IDP) to ensure examiners receive levels of training commensurate with their
experience, as well as attendance at national and regional training conferences and
webinars, both of which we believe contribute to an effective and consistent
examination environment.

Examinations Completed Timely

We determined that NCUA, on average, ensures the completion of examinations and
supervision contacts well within established timeframes. NCUA guidelines state
examiners should complete all examinations/supervision contacts within 60 calendar
days from the start date, with supervisory approval needed to extend the completion
timeframe if completion within 60 days is not possible.

We determined that nationally, NCUA completed regular FCU examinations (Work
Classification Code (WCC) 10) 16 in an average of 28 days, and regular joint FISCU


16
     WCC 10 is a regular examination of a federally chartered credit union.

                                                                                          11
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



examinations (Work Classification Code (WCC) 11) 17 in an average of 32 days. In
addition, our analysis showed, predictably, those credit unions with CAMEL composite
ratings of 1 or 2 took fewer days to complete than did credit unions with CAMEL 4 or 5
composite ratings. In fact, for FCU examinations, NCUA was able to complete CAMEL
1 and 2 composite rated credit union examinations an average of anywhere from six to
eighteen days sooner. In all cases, however, NCUA far exceeded expectations with an
average duration to complete examinations within the 60-day timeframe.

Table 1 (below) provides NCUA’s average number of days to complete a regular
examination for FCUs and FISCUs, broken down by regional office, CAMEL rating, and
asset size for WCCs 10 and 11, during the period from January 2007 through
December 2011.




17
     WCC 11 is a regular joint examination or insurance review of any state chartered credit union.

                                                                                                      12
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Table 1

     Average Days Duration – FCU (WCC 10) and FISCU (WCC 11) Examinations
                                     January 1, 2007 through December 31, 2011
                                                                                                         National
                     Region I            Region II      Region III      Region IV       Region V
                                                                                                        Averages**
                          WCC                WCC             WCC             WCC             WCC             WCC
                     10         11      10         11   10         11   10         11   10         11   10         11
 CAMEL 1             28         33      35         52   19         25   22         25   28         32    26        32
 <$2M                26         14      26              14          9   17          7   64               22         9
 <$10M               22                 24              15         13   18         17   18         16    19        15
 <$50M               26         17      31              19         11   20         26   24         18    23        20
 <$100M              26         72      36         59   22         24   23         21   32               27        36
 <$500M              31         29      37         66   23         25   26         25   32         11    30        28
 $500M or >          39         37      49         49   21         27   37         28   37         37    37        35
 CAMEL 2             30         35      32         45   20         24   23         26   27         31    27        31
 <$2M                27          9      27         15   16          8   20         20   20         16    23        17
 <$10M               27         34      28         36   18         20   21         20   23         10    24        23
 <$50M               30         28      31         31   21         19   23         20   27         26    26        22
 <$100M              32         33      39         38   23         19   26         26   30         29    31        28
 <$500M              33         34      40         40   23         23   30         29   37         28    33        31
 $500M or >          42         43      48         56   24         29   35         33   35         41    39        40
 CAMEL 3             32         41      34         46   23         25   26         28   30         29    29        32
 <$2M                29         27      29         45   21          9   25         21   23         15    27        25
 <$10M               29         29      32         35   21         12   24         27   24         27    27        26
 <$50M               33         38      36         42   23         18   26         26   30         19    30        28
 <$100M              39         40      43         45   25         22   33         34   33         34    36        36
 <$500M              40         47      48         43   29         30   31         31   39         29    39        37
 $500M or >          47         61      56         57   33         39   33         38   49         41    43        48
 CAMEL 4             34         41      43         49   24         30   27         30   31         30    33        36
 <$2M                35         27      37         52   22         15   27         32   19         33    29        31
 <$10M               32         32      38         37   21         25   26         24   28         32    29        28
 <$50M               32         37      41         43   27         26   26         26   31         22    33        31
 <$100M              37         40      57         41   32         88   44         35   41         27    46        38
 <$500M              49         65      53         56   34         30   43         34   38         32    46        43
 $500M or >          42         72      58         52   58         47              43   39         46    51        50
 CAMEL 5             64         56      49         62   29         32   22         26   45         44    44        44
 <$2M                55         47      53              20              21         24              35    38        32
 <$10M               48                 52              44         34   26              26         57    45        45
 <$50M               40         62      36         56                              30   44               40        53
 <$100M             196         55                                 29                              42   196        44
 <$500M              39                 36         65   18                              67               40        65
 National
 Average            30          38      34         47   21         25   24         27   28         31   28         32
 Source: AIRES
 ** Any discrepancies in the National Averages are due to rounding.


Resource Hours Adequately Budgeted

During our review we determined NCUA does not have a policy that expressly
establishes a targeted number of hours examiners are expected to adhere to when
conducting examinations and supervision contacts. Rather, NCUA’s national policy

                                                                                                                   13
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



uses a tiered approach to annually budget hours and resources to ensure examiners
allocate budget hours consistent with the size, complexity, and risk profile of individual
credit unions. 18 NCUA then expects examiners to adhere to the approved budgeted
hours for their assigned credit unions and must justify and obtain approval for exceeding
the budgeted hours.

NCUA guidance states:

        Budgeting and scheduling of examination work is critical to effectively
        manage resources and ensure timely examinations/supervision
        contacts. Appropriate scheduling ensures resource allocation can be
        directed to the credit unions of regional and national significance as
        needs arise and helps to ensure the NCUA achieves its mission.

Although we found no criterion which expressly established an average number of
hours to complete examinations, we determined that nationally, NCUA completed all
regular FCU examinations in an average of 96 hours, and regular joint FISCU
examinations in an average of 117 hours. Similar to our analysis of the average
number of days in Table 1, our analysis of NCUA’s average number of hours to
complete examinations was lower for credit unions with CAMEL composite ratings of 1
or 2 than credit unions with CAMEL composite ratings of 4 or 5. Specifically, NCUA
was able to complete CAMEL 1 composite rated FCU examinations versus CAMEL 5
composite rated FCUs an average of 61 hours sooner. We believe this difference in
hours is attributable to the greater time commitment involved in working on troubled
institutions.

Table 2 (below) provides NCUA’s average number of hours to complete a regular
examination for FCUs and FISCUs broken down by regional office, CAMEL rating, and
asset size for WCCs 10 and 11, during the period from January 2007 through
December 2011.




18
  With the establishment of the SCUEP, NCUA requires an average target time of 40 hours to complete small credit
union examinations, but acknowledges actual exam hours can vary depending on the complexity of the credit union
and problems identified.

                                                                                                             14
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10




Table 2

          Average Hours – FCU (WCC 10) and FISCU (WCC 11) Examinations
                    January 1, 2007 through December 31, 2011
                                                                                                      National
                       Region I        Region II      Region III    Region IV       Region V
                                                                                                     Averages**
                         WCC               WCC           WCC             WCC             WCC                WCC
                       10      11     10     11       10      11    10     11       10         11    10           11
 CAMEL 1              128      136   141     161      101    143    109    120      129    147       120       137
 <$2M                  39       9     46              36      40     42    13        42              41         19
 <$10M                 48             54              44      69     47    24        52        49    48         47
 <$50M                 71      80     75              61      54     69    31        80        45    70         45
 <$100M               108      80    109      58      92      38    104    34       112              105        45
 <$500M               168      99    167      78      159    115    176    92       167    102       168        96
 $500M or >           316      171   367      187     246    170    339    175      311    164       318       173
 CAMEL 2               93      110    95      152     80     139     84    104      102    120       90        119
 <$2M                  46      20     48      137     40      29     41    24        47     27       45         37
 <$10M                 57      38     56      38      49      42     53    33        59     33       54         35
 <$50M                 82      48     84      45      71      49     81    44        86     52       80         46
 <$100M               125      75    129      85      110     75    130    63       119     94       123        73
 <$500M               195      106   191      125     167    141    194    112      187    105       185       116
 $500M or >           371      181   337      228     298    230    332    226      308    174       332       208
 CAMEL 3               91      102    88      166     83     142     85    68       116    104       89         98
 <$2M                  51      38     50      40      46      35     48    31        51     36       49         33
 <$10M                 66      45     65      52      57      36     62    39        67     43       63         40
 <$50M                104      62    101      80      87      74    104    54        97     55       98         60
 <$100M               143      99    155      110     130    121    158    82       156     95       149        97
 <$500M               234      141   218      195     218    146    210    124      223    130       220       144
 $500M or >           407      202   410      311     325    325    378    282      380    203       369       279
 CAMEL 4              123      114   140      205     94     108     80    106      159    148       117       134
 <$2M                  64      42     61      58      53      35     54    31        58     36       57         35
 <$10M                 96      54     90      62      67      49     74    49        96     61       82         53
 <$50M                135      85    133      104     113     87    122    63       125     76       127        78
 <$100M               271      127   214      134     180    113    231    145      214    121       217       133
 <$500M               316      240   324      237     279    142    295    258      301    207       310       224
 $500M or >           320      513   425      358     473    399           696      405    285       411       412
 CAMEL 5              344      326   176     1,060    120    182    70     192      153    162       181       310
 <$2M                 130      134    87              68            70     200              37       84        135
 <$10M                289            213              155    197    69              66     212       184       205
 <$50M                242      244   427     285                           169      83               250       235
 <$100M              1,247     504                           152                           187      1,247      253
 <$500M               399            206     1,447    238                           379              305      1,447
  National Average     99      113   100      174     85      138   89         90   112    124       96        117
 Source: AIRES
 ** Any discrepancies in National Averages are due to rounding.

NCUA’s budgeting process for planning examination resource hours begins with
examiners. Examiners are responsible and accountable for using historical knowledge
of the credit unions assigned to them in their district. Examiners use modules in MARS
and ARIES to view previously recommended examination and supervision hours for


                                                                                                                   15
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



each district credit union. Based on this information, examiners submit recommended
estimated hours to their supervisor during an annual resource planning process.

In addition, examiners may recommend specialized resources in consultation with their
supervisor when the size, complexity, or potential risk to the NCUSIF warrants the use
of specialized expertise such as Regional office staff, Central office staff, Asset
Management Assistance Center staff, and outside contractors. 19 Examiners are also
required to consult with their supervisors during the year if conditions warrant changes
to the examination budget.

Supervisory Examiners are responsible and accountable for:

     •   Managing resources on an ongoing basis throughout the year to ensure
         examiners are properly developed and that examination and supervision
         programs are adequately completed;

     •   Managing resources to effectively examine large, complex and problematic
         institutions;

     •   Evaluating the annual budget recommendation (resources and scheduling) for
         their group after consultation with examiners in their district;

     •   Monitoring and reconciling group budgets monthly using the MARS online
         system and according to Assistant Regional Director, Programs (ARDP)
         direction; and

     •   Reporting the group program status, variances, and shortfalls to the ARDP
         monthly, and adjust budgets, or request assistance when group resources are
         not sufficient to complete the examination program, or as conditions warrant.

ARDPs are responsible and accountable for:

     •   Managing the regional resources budget and keeping the Regional Directors
         (RD) informed of the status of regional examination/supervision programs;

     •   Reallocating regional resources and coordinating with the Assistant Regional
         Director, Operations (ARDO)/ARDPs/RD to secure assistance when group
         resources are not sufficient; and

     •   Ensuring all workload budgets are reconciled by the 10th of each month.



19
  Specialized expertise at the regional and central offices can include Subject Matter Examiners (SME) in such
examination areas as: Capital Markets, Consumer Compliance, Electronic Payment Systems, Information Systems
and Technology, and Specialized Lending.

                                                                                                             16
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Regional Directors are responsible and accountable for:

       •   Providing quarterly reports to E&I 20 noting the region’s examination program,
           workload budget, and the status of any shortfalls and/or the identification of any
           assistance needed.

E&I is responsible and accountable for:

       •   Monitoring the successful completion of the national examination and supervision
           program;

       •   Reviewing the status of regional and national program completion and emerging
           needs;

       •   Assisting with resource needs where necessary;

       •   Establishing national priorities, when conditions warrant, ensuring completion of
           national program goals; and

       •   Monitoring appropriate MARS reports, specialized reports, and evaluating
           quarterly regional workload reports, to identify national trends and resource
           priorities.

We believe NCUA’s tiered approach to budgeting resource hours and scheduling
examinations and supervision contacts is working as operationally intended. Our review
of the process showed the average number of hours to complete examinations and
supervision contacts appears reasonable compared to the average number of days.
Therefore, we are making no recommendations at this time.

Improvements to MARS Would Enhance Compliance Monitoring

We determined NCUA uses several quality control methods such as Quality Control
Reviews (QCR), Monthly Management Reports, SE Evaluations, and ARDP Reviews to
help achieve the above results and ensure examinations consistently meet established
timeframe standards. However, we determined that NCUA’s MARS cannot produce a
report that would provide Regional officials with the exact number of days all
outstanding contacts have been open. As a result, SEs and other regional officials must
rely on other reports inside of MARS to estimate the number of days an outstanding
contact has been open.

NCUA’s Examiner’s Guide states that regional office Division of Supervision (DOS)
analysts review reports to identify existing or emerging trends, common or frequently
occurring findings, and systemic risk factors including trends in the examination
process. To monitor the duration of examinations, regional offices told the OIG they rely

20
     E&I officials periodically and routinely request these reports from the regions.

                                                                                            17
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



on their DOS analysts to perform QCRs, which includes, in part, whether examiners
adhered to timeliness aspects covered in:

       •   Instruction 5000.15 (Rev. 3) – Annual Examination Scheduling;
       •   The Examiner’s Guide; and
       •   Examination workpapers for evidence to explain why an examination may have
           exceeded established timeframes.

Regional offices also noted the use of monthly management reports to measure
compliance with established timeframes including use of an aging report – Days Since
Last Contact. In addition, regional offices told the OIG that SEs use the MARS report –
FCU Contact Completion – to track completion timeframes to determine whether a
waiver from the ARDP is necessary and that ARDPs use the DOS QCRs, SE
Evaluations, and DOS monthly management reports to spot check completion
timeframes throughout the year.

During our review, we learned that SEs and regional officials monitor outstanding
examinations and supervision contacts and roughly estimate the length of time
outstanding contacts are open with Time Work in Progress (WIP) and Contact Time
reports. NCUA officials also advised the OIG that the WIP Exception Report shows
time charged for which examiners did not upload a contact report to AIRES. However,
we determined none of these reports allows SEs to determine the exact number of days
outstanding contacts, not yet uploaded to AIRES, have been open.

Additionally, NCUA officials indicated the Reporting Services Reports section of NCUA
Central 21 contains a report – Examinations Open Greater than No. of Days – that
reflects the number of days examinations (WCC 10 and 11) and onsite supervision
contacts (WCC 22 and 23) 22 uploaded in AIRES, remained open. We determined users
could enter any number of days to filter the results. For example, if users enter the
number “60”, the report will capture all examination and onsite supervision contacts
open for more than 60 days. Therefore, by entering the number “1”, users can capture
virtually all examination and onsite supervision contacts and see the number of days
they remained open. However, we believe having regional officials review examinations
and supervision contacts in this manner is inefficient.

Although the tools/reports described above do exist inside and outside of MARS, we
believe regional offices would benefit from the development of an additional report
inside MARS to track the exact number of days all outstanding contacts have been
open. Although we determined that’ on average, NCUA meets or exceeds established
timeframes for completing examinations and supervisory contacts, we believe such a
report could provide useful information and significantly improve an SE’s ability to
precisely monitor outstanding work assignments for compliance with the NSPM as well

21
     NCUA Central is NCUA’s internal web site where management officials access MARS reports.
22
     WCC 22 and WCC 23 are on-site supervision contacts of FCUs and FISCUs, respectively.

                                                                                                18
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



as ensure nationwide consistency in the length of time examinations and supervision
contacts remain open. Therefore, we are making the following recommendation:

Recommendation

We recommend NCUA management:

       1. Develop a Management Automated Resource System report to provide an exact
          number of days all outstanding examinations and supervision contacts have
          been open, organized by Supervisory Examiner group. This additional tool would
          allow Supervisory Examiners and regional officials to better manage the
          examination process to ensure timeframes for completion stay within established
          guidelines.

Management Response

Management agreed with the recommendation. Management indicated they plan to
address the issue by directing the Office of Examination and Insurance to coordinate
with the Office of the Chief Information Officer to develop the recommended report and
integrate the report into the Management Automated Resource System.

OIG Response

We concur with management’s planned actions.


Examiners Work Assignments are Commensurate with Experience and Expertise

NCUA has established national guidance to ensure consistency in the examination
process by requiring regional offices to assign examiners to work on credit unions that
are commensurate with their experience and expertise. We believe this work-allocation
guidance, along with NCUA guidance on Examiner-in-Charge (EIC) rotation, as well as
through a national training program for newer and seasoned examiners, delivers a
consistent national message to all examiners.

Due to scope limitations, we did not perform tests designed to determine the five
regional offices’ adherence to NCUA’s national guidance on this issue. However, all
five RDs informed the OIG that SEs adhere to NCUA Instruction No. 1220.03 Examiner
Work Allocation 23 for assigning work to Grade CU-11 examiners and below, which limits
Non-Principal Examiners (PE) from spending no more than 25 percent of total work time
per calendar year in charge of “large, complex, difficult, or sensitive” credit union work.




23
     NCUA revised NCUA Instruction No. 1220.03 on October 25, 2011.

                                                                                        19
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



NCUA Instruction No. 1220.03 also states in part:

         Only grade CU-9 or higher examiners may EIC or have credit unions
         assigned to their district that meet the criteria for “large, complex,
         difficult, or sensitive” credit union work. Examiners with grades lower
         than CU-9 may participate on examinations and supervision contacts for
         credit unions that meet the criteria for “large, complex, difficult, or
         sensitive” credit union work, but may not EIC or be assigned district
         responsibility for them.

The five RDs also confirmed they adhere to NCUA Instruction No. 5000.19 Examiner-in-
Charge Rotation. This instruction states in part:

        Examiners may serve as EIC for the following examination related
        work: 24

           • The EIC may be the same examiner for consecutive examinations
             completed within a four calendar year time period. This includes
             federal and state examinations as well as the off-site review of state
             examination reports.

           • The EIC will be rotated at the conclusion of the fourth calendar year
             and will not serve in that role until another examination or review of
             a state examination report is completed by a different examiner.
             The rotation time period starts with the calendar year in which an
             examiner first serves as EIC.

In addition, NCUA ensures examiners receive national training based on an annual IDP
prepared by the examiner and SE to identify and address employee-specific training
and development needs, as well as the use of webinars, conferences, and instructional
documents to disseminate examination related policies and practices nationally. Also,
regional offices acknowledged the use of MARS reports related to workload allocation
and monitoring to ensure adherence to the national instructions.

Perceived Inconsistencies in the Examination Process

Senator Johnson’s request to the OIG noted a concern that examiners are conducting
examinations with unclear standards or with inconsistent application of agency policies
and procedures. We asked NCUA management officials to comment on the Senate
Committee’s concerns regarding this important topic. We learned that NCUA officials
believe any perception by credit unions that examination standards are inconsistently
applied could be due to:



24
     Work Classification Code types 10, 11, and 26.

                                                                                      20
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



    •   The use of a RFE process which focuses attention and resources on areas of
        elevated risk where the level of risk may differ among credit unions of the same
        size and complexity;

    •   The level of risk in a specific credit union may differ from examination period to
        examination period;

    •   Although NCUA Instruction 5000.20 (Rev. 4) Risk-Focused Examinations –
        Minimum Scope Requirements prescribes minimum scope requirements for all
        examinations, examiners must apply reasonable discretion and judgment in
        developing the remainder of the examination scope to address areas of existing
        or emerging risk, which may result in reasonably different examination scopes for
        credit unions of the same size and complexity and/or different scopes from one
        examination period to another;

    •   The use of the CAMEL Rating System, which established a framework for
        assigning CAMEL ratings and assessing risk using both quantitative and
        qualitative information, could result in reasonably different conclusions based on
        interpretations of qualitative information; and

    •   A lack of knowledge among credit unions about other credit unions’ situations
        (unique challenges, operational differences, risk characteristics).

We agree with NCUA officials that these examples provide some explanation for any
perceived inconsistencies by credit unions regarding the examination process. We note
that the examples of perceived inconsistencies reported have one consistent item, i.e.
the human element in the form of examiner judgment and discretion. However, we also
believe a contributing factor to perceived inconsistencies from credit unions, and
specifically those referred to in the Senator’s letter to the OIG, could be attributed to the
fact that previously, each regional office had its own supervision manual to guide
examiners when performing examinations and supervision contacts. As noted above,
with the issuance of the NSPM, we believe NCUA officials have rectified this
shortcoming.




                                                                                             21
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



B. Complaint Process

     NCUA has an           We determined that NCUA has an appeals process where
     Appeals Process       credit unions can question examination results through
     in Place              informal and formal channels. Specifically, NCUA has in place
                           a two-tiered appeal process which encourages that disputes
                           over examiner determinations get resolved at the regional
office level and at the Central Office level through the SRC. We also determined that
NCUA executive management would benefit from a new reporting requirement on
regional determinations. In addition, we determined the SRC needs an electronic
system of record to document decisions made by the Committee; and that the
Ombudsman position does not organizationally report directly to either the agency’s
highest-ranking official or the NCUA Board, as required by the criteria which originally
established the position.

Appeals Process

During our review, we determined NCUA does not keep statistical information on
informal examination complaints because the process takes place during report
development. NCUA guidance encourages examiners to maintain ongoing
communication with credit union officials and management. NCUA officials indicated
that open communication is important when working through examination findings and
potential DOR issues. NCUA officials further indicated that during the report
development phase, the “give and take” between examiners and credit union officials is
where both parties work through any controversial examination issues.

Regional Director Appeals

If, after receiving an examiner’s final determination and disagreement persists, FCUs
and FISCUs can elevate the dispute and request a meeting with the RD. NCUA
considers these regional determinations slightly more formal, as evidenced by the
establishment of guidelines which require credit unions to contact the regional office
within 30 days of the examiner’s final determination with their intent to have the RD
review their case. Only after receiving the credit union’s request and verifying that an
NCUA examiner made the determination, will the RD review the dispute. 25

We found no written guidance indicating that NCUA requires its five regional offices to
keep statistics on each regional determination. However, because each region keeps
correspondence logs, we were able to have each region review their logs for the five-
year scope period of our review and provide us with the number of complaints elevated
to the RD for a regional determination, the average response time (days), and the
outcome of the regional determination. Although we did not perform tests to determine
the reliability of the data, we determined NCUA’s five regional offices handle, on

25
  If a state examiner made the examination determination, the region will turn the appeal over to the state for
appropriate action.

                                                                                                                  22
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



average, six examination-related complaints annually, with an overall average of 85
percent of the outcomes decided in favor of the NCUA. Table 3 (below) provides details
on the number of complaints, the timeliness of resolution, and the outcome for each
regional office from January 2007 through December 2011.

Table 3

                          Regional Office Complaints – FCU Examinations
                            January 1, 2007 through December 31, 2011
                                                                                               Overall
                                   Region I   Region II   Region III   Region IV   Region V
                                                                                               Average
                                                                                                   6
 Total Complaints (5-Yr Period)      30          31          45           19         24
                                                                                              (Yearly Avg)
 Average Resolution Time (Days)      55          28          48           26         60           43
 Shortest Resolution Time (Days)      3          1            1           9          12
 Longest Resolution Time (Days)      197         80         321           63         464
 Complaints Resolved in              25          31          38           15         18
                                                                                                 85%
 Agency Favor                       (83%)      (100%)       (84%)       (79%)       (75%)

 Source: NCUA Regional Offices’ Correspondence Logs


During our review, we determined that currently, NCUA executive management does
not know the number, types, and outcomes of regional determinations, but advised the
OIG that having such information would be a benefit in order to be aware of the types of
disputed examination issues that credit unions elevate for a regional determination.
Although we determined that, on average, RDs make approximately six regional
determinations per year, we agree with executive management and believe requiring
the regions to regularly provide this information to E&I would prove useful in allowing
E&I to know the types of examination issues on which examiners and credit union
management are unable to reach agreement. Therefore, we are making the following
recommendation.

Recommendation

We recommend NCUA management:

    2. Establish a national reporting requirement requiring each regional office to
       regularly provide to the Office of Examination and Insurance specific details on
       disputed examination issues elevated by credit unions to the Regional Director
       for a regional determination. The requirement could include providing
       information on the number of elevated disputed examination issues, details about
       the disputed issue and the level of effort needed to resolve it at the examiner
       level, the outcome of the regional determination, and the length of time it took to
       close the disputed issue.



                                                                                                             23
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Management Response

Management agreed with the recommendation. Management indicated they plan to
address the issue by directing the Office of Examination and Insurance to establish a
tracking procedure to facilitate the collection and consolidation of relevant complaint
information from each region.

OIG Response

We concur with management’s planned actions.


Supervisory Review Committee

Enactment of the Riegle Act in 1994 led the NCUA Board to establish an independent
intra-agency appellate process to review material supervisory determinations. NCUA
created the SRC, an independent appellate committee, through Interpretive Ruling and
Policy Statement (IRPS 95-1 26). The SRC consists of three senior staff members to
hear appeals of disputed examination issues. After receiving the RD’s determination on
a disputed examination issue at the regional level, a credit union may file a formal
appeal to the SRC either 30 days after the regional determination, or 60 days after
contacting the regional office if the region has yet to make a determination.

In all cases, credit unions must submit their written appeal to the SRC chairperson and
include the name of the appellant credit union, the determination or denial being
appealed, and the reason(s) for the appeal. The Board of Directors of the appealing
credit union must also authorize the appeal. Appeals heard by the SRC are limited to:
(1) CAMEL composite ratings of 3, 4, and 5 and all component ratings of those
composite ratings; (2) adequacy of loan loss reserve provisions; and (3) loan
classifications on loans that are significant as determined by the appealing credit
union. 27

The SRC may request additional information from the appellant and/or the regional
office within 15 days of its receipt of the appeal, and the appellant must provide the
additional information to the SRC within 15 days of receipt of the SRC request. The
SRC must make a determination on the appeal within 30 days from the date of the
receipt of an appeal by the SRC or of its receipt of any requested additional information.

We determined the SRC received two appeals during the scope period of our review,
one in 2009, and the other in 2010. Both appeals involved disputed CAMEL ratings and
in both cases the SRC upheld the changes to the CAMEL ratings proposed by NCUA
examiners.

26
   On August 29, 2012, NCUA issued IRPS 12-1 to amend IRPS 11-1, which removed all references to the RegFlex
program.
27
   Subject to requirements, credit unions may also appeal to the SRC a decision of the Director of the Office of Small
Credit Union Initiatives to deny Technical Assistance Grant reimbursements.

                                                                                                                   24
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Although we were able to determine that the SRC heard two cases within the scope
period of our review, we determined the SRC’s record keeping is in need of significant
improvement. Specifically, we determined the SRC keeps all of its records in hard-copy
format in a cardboard box. During a change in SRC chairpersons in late 2011, the
outgoing chairperson passed the cardboard box of files to the newly appointed
chairperson. When we questioned the new chairperson on the number of appeals the
SRC had decided on from 2007 to 2011, she could not readily tell us. However, we
were able to piece together the number of SRC cases and their outcomes from the box
of documents and interviews with present and past SRC members. In addition, from
regional offices, we confirmed the number of examination complaints, which included
the two previously mentioned SRC appeal cases. We believe best business practices
dictate that a Central Office-level appeals committee should have in place an electronic
system of records to house and organize all documents including the final decisions
handed down by the SRC on appeals cases. Therefore, we are making the following
recommendation:

Recommendation

We recommend NCUA management:

    3. Develop an electronic system of records for all Supervisory Review Committee
       related activities to document the decisions and supporting information
       associated with appeals cases brought before the Committee.

Management Response

Management agreed with the recommendation. Management indicated they have
already taken steps to address this recommendation by automating the storage and
organization of Supervisory Review Committee cases and are in the process of working
on enhancing central case tracking.

OIG Response

We concur with management’s actions taken and planned.


Ombudsman

The Riegle Act also led to the appointment of an Ombudsman through a BAM approved
by the NCUA Board on March 13, 1995. As previously mentioned, the BAM established
the Ombudsman position and provided that an existing NCUA employee, appointed by
the Chairman, would carry out the functions of the position collateral to the appointee’s
existing duties. In addition, the Ombudsman would report to the NCUA Board, act
independently of NCUA program functions, and have access to agency records. The
Board further authorized the Ombudsman to keep confidential any information and
material he/she obtained as a result of investigating complaints.

                                                                                      25
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10




The BAM prescribed six principal duties of the Ombudsman position:

    1. Receive, review and investigate external complaints of a regulatory nature (with
       certain exceptions) unresolved at the operational level;

    2. Recommend solutions to the parties to resolve individual complaints. The BAM
       specified here that the Ombudsman would not, however, have independent
       decision-making authority;

    3. Refer complaints outside the Ombudsman’s jurisdiction to appropriate agency
       officials;

    4. Follow up on SRC decisions to ensure that no retaliation had taken place and
       report instances of retaliation to the appropriate agency officials.

    5. Recommend systemic changes to respond to recurring problems revealed
       through the Ombudsman’s investigations; and

    6. Report semiannually to the NCUA Board regarding the complaints the
       Ombudsman has considered, the recommended solutions and actions taken, and
       any follow-up on SRC decisions.

At the time the NCUA initially staffed the Ombudsman position, the Board did not set a
term of service for each Ombudsman appointee. NCUA filled the first Ombudsman
position with the agency’s Chief Financial Officer. Subsequently, NCUA filled the
position with employees in the Office of the Chief Financial Officer, the Office of Human
Resources and, since 2010, the Office of Consumer Protection.

The position description for the Ombudsman, initially created in 1996, identified it as a
collateral duty position and listed, under duties and responsibilities, the six principle
duties, listed above. In addition, the position description stated the Ombudsman “shall
be independent of NCUA program functions . . . and report to the NCUA Board.”

In a BAM dated November 19, 2009, the NCUA Chief Financial Officer, in seeking
Board approval of the fiscal year 2010 and 2011 operating and capital budgets,
requested funding to establish an OCP as of January 1, 2010. The BAM provided that
OCP would “assume the activities of the agency’s Ombudsman,” and stated that the
Ombudsman “investigates complaints and recommends solutions on regulatory issues
that cannot be resolved at the regional level.” The BAM also referenced an attachment,
which provided additional information concerning OCP. The attachment contained one
reference to the Ombudsman position, stating that one of the objectives in creating the
OCP was to “elevate the role of the Ombudsman and provide dedicated resources to
this function.”



                                                                                        26
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Other than the brief references to the Ombudsman in the 2009 operating and capital
budget request, the NCUA Board did not, when the Ombudsman position transferred
into OCP in January 2010, issue a new BAM to revise or supersede the 1995 BAM.

When the NCUA Board established the OCP in January 2010, it sought, among other
important goals, to centralize the member complaint process in a new division, the
Division of Consumer Compliance and Outreach (DCCO). DCCO eventually assumed
from the five NCUA regional offices the responsibility of responding to member
complaints. The Board further transferred the Ombudsman responsibilities to the
Director, DCCO.

The position description 28 developed for the DCCO Director provided that the
Ombudsman is responsible for “investigating external complaints relating to regulatory
issues, recommending solutions and proposing systemic changes to deal with recurring
problems to appropriate agency officials.” 29 According to this position description, the
Director, DCCO reported directly to the OCP Director in carrying out both her director
and Ombudsman responsibilities. The OCP Director also prepared the DCCO Director/
Ombudsman’s performance appraisal.

The NCUA website (www.ncua.gov) identifies the Ombudsman and describes this
individual’s responsibilities. Specifically, the website states the following:

      NCUA's Ombudsman investigates complaints and recommends solutions.
      These complaints must relate to regulatory issues that cannot be resolved at
      the operational (regional) level.

      The Ombudsman assists in resolving problems by helping the complainant to
      define options and by recommending actions to the parties involved, but the
      Ombudsman cannot at any time decide on matters in dispute or advocate the
      position of the complainant, NCUA or other parties.

      The Ombudsman does not handle any matter:

             •   subject to formal review as set forth in NCUA Regulations or IRPSs;
             •   involving an enforcement action where a notice of charges has been
                 filed;
             •   in litigation;
             •   involving a conservatorship or liquidation; or
             •   within the Inspector General's jurisdiction.



28
  Position Description Number 1397 dated February 3, 2010.
29
  The position description limits the Ombudsman to reviewing only consumer (member) related complaints of a
regulatory nature; the Ombudsman is not involved in the NCUA’s formal appeals process for examination-related
complaints from credit unions.

                                                                                                                27
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



        All information and materials obtained as a result of a complainant's interview
        and any confidential records gathered during an investigation will be used only
        for purposes of the investigation and will not be disclosed outside of the
        Ombudsman's Office.

        The Ombudsman will make recommendations to appropriate agency officials
        for systemic changes to deal with recurring problems revealed through
        investigations. The Ombudsman reports to the NCUA Board and is
        independent from operational programs.”

        (Emphasis added.)

In March 2011, NCUA launched a new website, www.mycreditunion.gov. NCUA
describes the new website as a toolbox to provide educational information and personal
finance tips designed to help individuals in making smart financial decisions and better
choices for their money. The webpage identifies the NCUA Ombudsman, provides
contact information for her office, and describes her duties similarly to the main NCUA
website, with the exception that it omits the statement “the Ombudsman reports to the
NCUA Board.” There is no mention of who the Ombudsman reports to.

As described above, the Ombudsman’s current position description sets forth her
responsibilities as:

         [i]nvestigating external complaints relating to regulatory issues,
         recommending solutions and proposing systemic changes to deal
         with recurring problems to appropriate agency officials.

It further states:

         [t]he incumbent reports directly to the OCP director on all matters,
         both technical and administrative.

The Ombudsman described the scope of her responsibilities as follows:

    •    Acts as an objective mediator between consumers and NCUA, and credit unions
         and NCUA;
    •    Lacks authority to make final decisions or overturn agency decisions;
    •    Makes recommendations limited to only identifying inefficiencies and breakdowns
         in procedures and policies between NCUA and outside parties; and
    •    May ask RDs, Office Directors, and/or the NCUA Board to reconsider their
         respective decisions, but cannot influence final decisions.

The NCUA Ombudsman stated that, with regard to member complaints she reviews in
her Ombudsman capacity, she reports statistical, administrative, and procedural

                                                                                          28
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



information to the OCP Director who, in turn, reports to the Board. She also provides
statistical information for inclusion in NCUA Management Reports, which are issued
monthly, as well as in semiannual reports to the NCUA Board. The Ombudsman also
stated that all of the cases to which she has responded have been appeals of routine
member complaints, not complaints from credit unions related to examinations.

Table 4 (below) provides details on the number and timeliness to resolve the member
complaint cases opened and responded to by the Ombudsman during 2010 and 2011:

Table 4

                   Member Complaints Handled by the Ombudsman
                                                       2010              2011      Total
 Complaints                                               4                38       42
 Average Resolution Time (Days)                          32               173
 Shortest Resolution Time (Days)                          3                 1
 Longest Resolution Time (Days)                          82               335
 How Resolved                                        Unknown*           Unknown*
 *No statistics kept on the outcome of Ombudsman member complaint cases

Ombudsman Reporting

Although the Ombudsman organizationally reports to the Director, OCP, should
substantive consumer complaint issues arise, she has the authority to report such
issues directly to the NCUA Chairman. However, we determined the Ombudsman has
not met with the Chairman to discuss any such complaints since she assumed the
Ombudsman function in 2010, as none of those received rose to the level of
“substantive.”

We determined further that the current Ombudsman position description does not agree
with either the information posted on NCUA’s main website or the guidelines set forth in
the 1995 BAM. Specifically, the current position description lacks both the detailed
delineation of duties and responsibilities and the paragraph concerning Ombudsman
independence and reporting, which the 1995 position description included. All three of
these sources—the main NCUA website, the 1995 BAM, and the 1996 position
description—indicate that the Ombudsman reports directly to the NCUA Board.
However, as mentioned above, the current position description for the DCCO
Director/Ombudsman position states that [t]he incumbent reports directly to the OCP
Director on all matters.”

Both the Ombudsman and the Director, OCP, acknowledged that while section 309(d)
of the FCU Act is silent regarding to whom the Ombudsman reports, current Federal




                                                                                           29
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



employee Ombudsman guidance 30 advises that the Ombudsman should, if possible,
report and have direct access to the highest agency official. The Director, OCP,
recommended to the NCUA Board, in a White Paper dated July 2011 (White Paper),
that the NCUA Office of Human Resources conduct a renewed review of all aspects of
the Ombudsman position and update both the position description and the performance
plan for the position. The White Paper also specifically recommended that the NCUA
Board revisit who the Ombudsman reports to and consider the independence,
impartiality, and confidentiality required of the position when making its determination.

We believe that the NCUA’s original determination that the Ombudsman position should
report to the highest agency official—an approach also proposed by the Director, OCP
and endorsed by the Ombudsman Steering Committee—represents the optimal
reporting structure. Therefore, we are making the following recommendation.

Recommendation

We recommend NCUA management:

     4. Revisit the current Ombudsman reporting structure to ensure the position reports
        either directly to the highest agency official as recommended by the Ombudsman
        Steering Committee, or to the NCUA Board as set forth in the 1995 Board Action
        Memorandum.

Management Response

Management agreed with the recommendation and indicated they plan to reevaluate the
current Ombudsman reporting structure.

OIG Response

We concur with management’s planned actions.


Member Complaint Process

At the time we initiated this audit, DCCO was responsible for processing and facilitating
the resolution of member complaints. Prior to the formation of OCP in 2010, NCUA
regional offices responded to complaints against credit unions. In 2010, NCUA
centralized this responsibility within DCCO. Table 5 (below) provides the number of
closed member complaints received by DCCO against FCUs and FISCUs, for 2011 and
2012. 31

30
   A Guide for Federal Employee Ombuds, developed by the Coalition of Federal Ombudsman and the Federal
Interagency Alternative Dispute Resolution Working Group Steering Committee (Ombudsman Steering Committee);
1 C.F.R. § 305.90-2.
31
   OCP began using Parature software to capture complaint data on June 6, 2011. Data for 2012 is current through
May 31, 2012.

                                                                                                              30
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10




Table 5

                         Closed Member Complaints Against Credit Unions
                                   June - December 2011           January – May 2012                  Total
 Federal Credit Unions                        383                          1,173                      1,556
 Federally Insured
 State-Chartered Credit                       324                           341                        665
 Unions
 Total                                        707                          1,514                      2,221

Initially, DCCO analysts routinely responded by letter to member complaints and
reported violations of compliance regulations. All of the letter responses bore the
signature line “Ombudsman,” although they were not hand-signed by the Ombudsman
herself. Because OCP recognized that this arrangement could result in a potential
conflict if the complainant sought Ombudsman review of a DCCO complaint response,
OCP decided to reorganize internally to avoid this scenario.

In June 2012, OCP reorganized internally, creating a new, third division – the Division of
Consumer Affairs (DCA). OCP changed the name of DCCO to the Division of
Consumer Compliance Policy and Outreach (DCCPO). The DCA assumed
responsibility for investigating and responding to member complaints. The Ombudsman
function remained within the newly titled DCCPO, continuing to reside in the Director
position. With the creation of DCA, OCP ensured a separation of functions between
NCUA responses to member complaints and potential Ombudsman review of such
responses. 32 As a result, NCUA member complaint responses no longer bear the
signature line “Ombudsman,” but rather, are now signed by the Director, DCA.




32
   Although NCUA created a new position description for the DCCO Director position as a result of the reorganization,
the language for the DCCO Director’s ombudsman responsibilities were not changed. Consequently, we reiterate our
recommendation above that NCUA revisit the current ombudsman reporting structure to ensure the position reports
either to the highest agency official or to the NCUA Board.

                                                                                                                 31
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Appendix A:

                      Small Credit Union Examination Program
                FCU Examinations – Minimum Scope Requirements
 Complete a review of loans granted during the prior six months including a sample
 from identified loan concentrations, loan types that present higher levels of risk (e.g.
 real estate, MBLs, participations, indirect), insider loans, extensions, and share
 secured loans.
 Review file maintenance reports generated by the credit union for at least three
 consecutive months.
 Review and test the most recent three months’ bank and/or corporate account
 statements and associated reconciliations, using original documents.
 Review the Allowance for Loan and Lease Losses (ALLL) Account for Full and Fair
 Disclosure Requirements.
 Review of audit, internal audit, and/or Supervisory Committee activities including
 work papers.
 Review AIRES share and loan download and queries.
 Review prior DOR items to determine if resolved, unresolved, or no longer
 applicable, and appropriately document results within DOR module.
 Review surety bond coverage to ensure credit union has adequate coverage in
 accordance with NCUA Rules and Regulations Part 713.
 Review compliance with any new regulations, or changes to existing regulations,
 since the last examination.

                      Small Credit Union Examination Program
              FCU Examinations – Minimum Required Questionnaires
 BSA – Bank Secrecy Act
 Flood Act
 5300 Review
 Audit Verification Review
 Red Flag Questionnaire




                                                                                            32
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10



Appendix B: NCUA Management Comments




                                                                               33
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10




                                                                               34
Review of NCUA’s Examination and Complaint Processes for Small Credit Unions
OIG-12-10




                                                                               35
